                                                    SENSITIVE BUT UNCLASSIFIED



                                              United States Department of State
                                           and the Broadcasting Board of Governors
                                                  Office of Inspector General
Office of Inspector General

                                                 Office of Inspections

                                                    Inspection of
                                               Embassy Conakry, Guinea

                                              Report Number ISP-I-11-44A, June 2011




                                                                Important Notice

                              This report is intended solely for the official use of the Department of State or the
                              Broadcasting Board of Governors, or any agency or organization receiving a copy
                              directly from the Office of Inspector General. No secondary distribution may be made,
                              in whole or in part, outside the Department of State or the Broadcasting Board of
                              Governors, by them or by other agencies of organizations, without prior authorization
                              by the Inspector General. Public availability of the document will be determined by the
                              Inspector General under the U.S. Code, 5 U.S.C. 552.Improper disclosure of this report
                              may result in criminal, civil, or administrative penalties.




                                                    SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED



                    PURPOSE, SCOPE, AND METHODOLOGY
                           OF THE INSPECTION

This inspection was conducted in accordance with the Quality Standards for Inspections, as
issued by the President’s Council on Integrity and Efficiency, and the Inspector’s Handbook, as
issued by the Office of Inspector General for the U.S. Department of State (Department) and the
Broadcasting Board of Governors (BBG).

PURPOSE AND SCOPE

       The Office of Inspections provides the Secretary of State, the Chairman of the BBG, and
Congress with systematic and independent evaluations of the operations of the Department and
the BBG. Inspections cover three broad areas, consistent with Section 209 of the Foreign Service
Act of 1980:

   •   Policy Implementation: whether policy goals and objectives are being effectively
       achieved; whether U.S. interests are being accurately and effectively represented; and
       whether all elements of an office or mission are being adequately coordinated.

   •   Resource Management: whether resources are being used and managed with maximum
       efficiency, effectiveness, and economy and whether financial transactions and accounts
       are properly conducted, maintained, and reported.

   •   Management Controls: whether the administration of activities and operations meets the
       requirements of applicable laws and regulations; whether internal management controls
       have been instituted to ensure quality of performance and reduce the likelihood of
       mismanagement; whether instance of fraud, waste, or abuse exist; and whether adequate
       steps for detection, correction, and prevention have been taken.

METHODOLOGY

In conducting this inspection, the inspectors: reviewed pertinent records; as appropriate, circulated,
reviewed, and compiled the results of survey instruments; conducted on-site interviews; and
reviewed the substance of the report and its findings and recommendations with offices,
individuals, organizations, and activities affected by this review.




                                           i
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED




                                                        United States Department of State
                                                        and the Broadcasting Board of Governors

                                                        Office of Inspector General




                                           PREFACE


       This report was prepared by the Office of Inspector General (OIG) pursuant to the
Inspector General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980,
as amended. It is one of a series of audit, inspection, investigative, and special reports prepared
by OIG periodically as part of its responsibility to promote effective management, accountability
and positive change in the Department of State and the Broadcasting Board of Governors.

        This report is the result of an assessment of the strengths and weaknesses of the office,
post, or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

       The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective, efficient,
and/or economical operations.

       I express my appreciation to all of those who contributed to the preparation of this report.




                                             Harold W. Geisel
                                             Deputy Inspector General




                                           ii
                              SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED


                                 Table of Contents
Key Judgments                                                   1
Context                                                         2
Executive Direction                                             3
Policy and Program Implementation                               6
   Political, Economic, and Commercial Affairs                  6
   Law Enforcement Issues                                       7
   Foreign Assistance                                           7
   Public Affairs                                               8
   Consular Affairs                                             9
Resource Management                                            13
   Management Operations                                       13
   Financial Management                                        14
   International Cooperative Administrative Support Services   15
   Human Resources                                             15
   General Services                                            17
   Facilities Maintenance                                      19
   New Embassy Compound                                        20
   Information Management                                      20
Quality of Life                                                23
   Health Unit                                                 23
   Community Liaison Officer                                   23
   Equal Employment Opportunity Counselor                      23
   Recreation Association                                      24
   International School                                        24
Management Controls                                            25
   Property Management Standard Operating Procedures           25
   Nonexpendable Property Transfer Process                     25
   Procurement and Contracting                                 26
   Internal Controls on Fuel                                   26
List of Recommendations                                        29
Informal Recommendations                                       31
Principal Officials                                            32
Abbreviations                                                  33




                                        iii
                            SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


Key Judgments

   •   Embassy Conakry played a central role in encouraging the democratic elections of 2010,
       the first in Guinea’s recent history. The Ambassador, in particular, is credited with urging
       Guinea’s interim, postmilitary junta government to move the democratic process forward,
       culminating in the peaceful inauguration in December 2010 of the country’s first
       democratically elected President.

   •   Faced with staffing gaps caused in part by the ordered departure of embassy employees
       during a critical period in Guinean history, the executive leadership did a good job of
       empowering entry-level personnel to successfully assume leadership responsibilities in
       policy formulation and implementation. However, insufficient communication and
       executive oversight of some entry-level personnel also contributed to the uneven
       application of established rules and procedures that damaged overall mission cohesion
       and post operations.

   •   Embassy Conakry is an extreme hardship post that ranks among the most difficult
       assignments in the Foreign Service. A seasoned management officer has made significant
       improvements to operations despite a nearly nonexistent local infrastructure,
       inexperienced local employees, and an extended post evacuation that eroded American
       oversight of internal controls. Now that the election and security crisis have passed, it
       would be beneficial for executive leadership to devote more time to internal operations to
       improve service quality and minimize internal vulnerabilities.


The inspection took place in Washington, DC, between January 10 and 28, 2011, and in
Conakry, Guinea, between March 8 and 23, 2011. (b) (6)




                                          1
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


Context
        In December 2010, after enduring more than 50 years of authoritarian rule, Guinea
(officially the Republic of Guinea) inaugurated its first-ever democratically elected President.
Although declared free and fair by international observers, the election was preceded by months
of political and ethnic violence that led to a 6-month ordered evacuation of all nonessential
American personnel from Embassy Conakry. A fragile political stability has returned to Guinea,
but the new President, Alpha Conde, who won the election by a very narrow and contested
margin, had spent the past 20 years living in France, has limited administrative experience, and
faces the daunting challenge of rebuilding the government as the country prepares for mandated
parliamentary elections in late 2011.

        Guinea is located on the Atlantic coast of West Africa, is slightly smaller than Oregon,
and has a population of approximately 10 million, 80 percent of which is Muslim. The country
has enormous mineral wealth, including more than one-third of the world’s bauxite reserves and
large reserves of gold, diamonds, iron, and offshore oil and gas. Even though rich in natural
resources, Guinea has been left in ruin and poverty after decades of government
mismanagement, rampant corruption, and a poor legal system. The United Nations ranked
Guinea 156 out of 169 nations in its 2010 quality-of-life index, and the World Bank ranked
Guinea 179 out of 183 in its 2011 business environment survey.

        Despite the high risk of doing business in Guinea, the country’s natural resources have
attracted significant foreign investment over the years, including from America. The greatest
hope for increased investment and international involvement with this country in the future is
continued stability to allow the pursuit of substantive reform by the new government. The United
States has clear political and economic interests in Guinea, and priorities include the promotion
and support of democracy and governance, security sector reform, sustainable economic growth,
protection of human rights, security against transnational threats, and improved mission
management. Undeterred by the 6-month evacuation, Embassy Conakry, with minimal staff, was
a principal force in pushing the 2010 elections forward to a successful conclusion. Mission
program efforts focus on training the new political leadership, security sector, and civil
organizations, particularly youth groups, to ensure a peaceful transition as the country prepares
for the legislative elections.

        Embassy Conakry is a hard-to-fill, hardship-differential (30 percent), adult-dependents-
only post, with two rest and recuperation trips during a 2-year assignment. The embassy has 27
direct-hire Americans when fully staffed (which has not been the case since October 2009) and
335 locally employed (LE) staff representing the Department of State (Department), the
Department of Defense, the U.S. Agency for International Development (USAID), and the Peace
Corps. Annual U.S. Government assistance to Guinea is currently approximately $17 million.




                                          2
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Executive Direction
Embassy Conakry: Recent History

        The Ambassador arrived in Conakry at the beginning of November 2009, just more than
a month after members of the augmented Guinean Presidential Guard, a military force directly
controlled by (then) ruling military junta President Moussa Dadis Camara, entered the Conakry
Football Stadium and opened fire on a large rally of political opponents. According to
international organizations, at least 150 were reported killed and more than 1,000 were wounded.
The Presidential Guard also publicly raped many of the female protesters during the September
28 incident.

        In the weeks following the atrocity, U.S. Embassy Conakry was evacuated via mandatory
ordered departure down to a skeleton staff, leaving the newly arrived Ambassador with no
political, economic, or public diplomacy officer and no office manager. Embassy personnel
began returning to post as early as mid-December, and by mid-March 2010, the Department
rescinded the ordered departure, enabling embassy staff members and their adult dependents to
return to post. Children, however, are still not authorized to accompany their parents to Guinea,
which damages the embassy’s ability to attract qualified bidders to this already difficult-to-staff,
high-differential West African post.

Recommendation 1: Embassy Conakry, in coordination with the Bureaus of African Affairs,
Diplomatic Security, and Human Resources, should take appropriate steps to review the current
adult-dependents-only status and determine whether it should be changed. (Action: Embassy
Conakry, in coordination with AF, DS, and DGHR)

        From the start, the drastic reduction of the embassy—executed without the Ambassador’s
concurrence—created friction in the relationship between the Ambassador and the Bureau of
African Affairs (AF). A year and a half later, the OIG team found that the relationship between
the Ambassador and some key officials in AF remains frosty, potentially damaging trust and
credibility on both sides.

        OIG team interviews revealed, and the Ambassador herself acknowledged, that she was
further challenged at the beginning of her tenure by confidence and compatibility issues between
herself and her (then) deputy chief of mission (DCM), who completed his tour in July 2010. The
inspection interviews reveal a perception that she managed by marginalizing him, relying instead
on her small cadre of entry-level officers (ELO) and specialists to help her through the critical
period from the stadium massacres through the Presidential election. Thanks to this team effort,
Embassy Conakry, and the Ambassador in particular, is widely credited for its leadership in
encouraging Guinea’s interim, postmilitary junta government throughout the democratic process,
which culminated in the December 2010 inauguration of the country’s first democratically
elected President.

         Throughout 2010, when the entire embassy had been consumed with election-related
activities, the only at-grade members of the Ambassador’s country team were her DCM, consular
chief, and regional security officer (RSO). Until the arrival of the at-grade management officer in

                                           3
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

August, both the acting management officer and the acting political/economic chief were first-
tour ELOs. The extraordinary ELO political/economic chief also served for most of 2010 as the
acting public affairs officer (PAO). Assigned to a rotational position, she officially transferred to
the vice consul position in July 2010, but, according to OIG interviews, still retained her
authority as de facto political/economic chief at the time of the inspection.

Mission Strategic and Resource Plan: The Process

         In early 2010, the Ambassador assigned coordination of Embassy Conakry’s FY 2012
Mission Strategic Resource Plan (MSRP) to her ELO political/economic chief and ELO general
services officer. The OIG team learned that the Ambassador’s direction was to make clear in the
MSRP the need for the United States to work with Guinea’s transitional government. The
Ambassador advised her ELOs that the MSRP was the central document, the roadmap for all
embassy operations, and that work on its preparation was an opportunity for them to see the
embassy as a whole. What made the MSRP special, she said, was that it demonstrated the U.S.
“all-of-government” approach to foreign policy goals. At the time of the OIG inspection,
Embassy Conakry was starting preparations for its FY 2013 MSRP, with the two ELOs again
coordinating the policy and process. The current DCM, who arrived in July 2010, told the
inspectors that he would be more directly involved in the process than had his predecessor. The
inspectors learned he has attended the initial meetings and urged him to assume a stronger
leadership role over policy and procedure. They reiterated this point to the Ambassador. A
seasoned officer’s direct oversight should help the ELOs, who are still new to the process. In
response to OIG questionnaires, the DCM reported that the MSRP is used in internal
management at the mission, that the goals and objectives enjoy complete mission consensus, and
that public diplomacy goals are included as part of each MSRP section.

Information Sharing: Country Team and Other Venues

        Embassy Conakry maintains a traditional structure with respect to regularly scheduled
meetings. The Ambassador chairs the twice weekly (Tuesdays and Fridays) country team
meetings at which all U.S. direct-hire personnel are welcome. The OIG team observed active
meeting participation from all embassy sections as well as the small interagency contingent
consisting of the Defense attaché office, USAID, and the Peace Corps. Further to mission
cohesion, OIG questionnaires revealed mission-wide confidence in post management attention to
security and emergency preparedness, and no Equal Employment Opportunity (EEO) concerns.
Overall morale in the challenging Conakry environment, as evidenced in the collegial country
team setting and elsewhere, appeared good. Aside from her country team and daily press
briefings, the Ambassador does not keep a schedule of regular embassy meetings but does talk to
individual officers on specific issues.

       The DCM, in keeping with a traditional embassy structure, handles a much more
extensive meeting schedule than does the Ambassador, including meetings with all embassy
sections and all agencies each week or every 2 weeks. He has a session with the LE committee
every 2 weeks, and the OIG team encouraged him to include the management officer in these
meetings. He also chairs a weekly session that he established to discuss political-military affairs,
which are critical in a country that only recently was led by a military junta.

                                           4
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

         Given the Ambassador’s busy schedule of official commitments outside the embassy, it
falls to the DCM to assume the classic role of internal mission management and problem solving.
Although in principle this traditional division of labor is workable, from conversations with
embassy personnel and through personal observation, it appeared to the inspectors that too-rigid
adherence to this model may enable the Ambassador to avoid some of the more unpleasant
aspects of internal management. For example, when the OIG team brought to her attention an
unconventional four-way LE staff reassignment, which reportedly was precipitated by her
dissatisfaction with some of the LE staff members, the Ambassador recounted her perception that
all appropriate procedures had been followed. This situation is described in greater detail in the
Human Resources (HR) section of the report. The OIG team discussed the matter with the
Ambassador and the DCM, as well as the advisability of the Ambassador adopting a more
engaged approach to mission management

        Conversely, the DCM appears to have little visibility outside the embassy, particularly
with respect to the Guinean Government. This condition, which the inspectors also discussed
with the front office, may impede the DCM’s operational effectiveness, particularly when he is
obliged to assume the position of charge d’affaires a.i. In a mission as small as Embassy
Conakry, and with a disproportionately large number of inexperienced officers, it makes sense to
consider a front office structure in which the DCM is the true alter ego of the Ambassador.

Executive Direction: Entry-Level Officers and Specialists

        The DCM meets frequently with Embassy Conakry’s large group of entry-level personnel
individually, in groups, and on an ad hoc basis. He maintains a genuine open-door policy, and
the ELOs indicated that they have taken advantage of this accessibility. The DCM has also
established a regularly scheduled ELO meeting. Such a meeting might appear incongruous,
because most of the ELOs have already been delegated positions of considerable responsibility
and authority within the embassy community. Nevertheless, ELOs often are not fully equipped to
assume the levels of responsibility and authority expected of mid-level officers. The OIG team
encouraged the Ambassador and the DCM to provide more direct oversight of both strategic
policy direction and tactical management issues for those officers and specialists who may be too
new to even know what questions they should be asking. In addition, the inspectors suggested
that the front office call upon its mid-level front-line supervisors (the few that they currently
have) to assist in providing this guidance.




                                          5
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Policy and Program Implementation
Political, Economic, and Commercial Affairs

        From the October 2009 ordered departure until the time of the OIG inspection, the
embassy’s small political/economic section was composed exclusively of first-tour officers. The
months of preelection political upheaval placed extraordinary demands on the embassy and
especially on this section, which during some periods had no assigned officers and had to rely on
short-term temporary duty help. As noted earlier in this report, during one 6-month period, a
rotational ELO operated the section alone while also serving as the acting public affairs officer.
The section now has two of its three direct-hire positions filled with first-tour officers, although
the rotational ELO, now in the consular section, was still considered to be the de facto section
chief at the time of the inspection. The section chief position has been vacant since October
2009. The new section chief had been scheduled to arrive in November 2010, but at the time of
the inspection was being held for additional French language training.

        The section is supported by two LE political assistants, one LE economic/commercial
assistant, and one LE Ambassador’s Special Self-Help Program fund coordinator. One of the
political assistants joined the section under irregular circumstances, which are discussed in the
Human Resources section of this report.

        Throughout 2010, the section was consumed almost exclusively with supporting the front
office’s efforts to facilitate a successful first democratic election in Guinea. Its advocacy work
and frequent reporting received high marks from Washington consumers. At the same time, it
managed to fulfill the Department’s many mandated reporting requirements. The section
performed remarkably well under trying circumstances. Although the section has made the
transition from paper files to electronic filing, the system is not well organized. The OIG team
counseled section staff on this issue.

        Following the 2010 election, the section has been able to broaden its scope. The return of
political stability has significantly increased the demands on the economic officer to support
growing U.S. commercial interests in Guinea, particularly from extractive industries. Neither the
economic officer nor the economic/commercial assistant has had formal commercial training and
both depend on support from the Foreign Commercial Service’s regional office in Dakar,
Senegal, which is scheduled to close later this year. Its closure will undercut the section’s
capacity to serve the growing American business community in Guinea. Commercial training for
the economic officer and the economic/commercial LE staff would help minimize the negative
impact of the Dakar office closure.

Recommendation 2: The Bureau of African Affairs, in coordination with the Bureau of Human
Resources, should enroll the incoming economic officer in the Foreign Service Institute’s
commercial tradecraft course prior to his arrival in Conakry. (Action: AF, in coordination with
DGHR)

Recommendation 3: Embassy Conakry, in coordination with the Bureau of African Affairs,
should send its economic/commercial locally employed staff to a neighboring embassy for on-

                                           6
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

the-job training in commercial procedures and policies. (Action: Embassy Conakry, in
coordination with AF)

        The section has small but growing responsibilities for overseeing the management of
assistance programs. This issue, along with a recommendation, is discussed in greater detail in
the Foreign Assistance section of this report.

Law Enforcement Issues

         The RSO is the only law enforcement representative in Embassy Conakry. He arrived in
September 2010 at the height of political tension and quickly became involved with embassy
efforts to support security sector reform. Elements of that support are described in the Foreign
Assistance section of this report. The RSO works closely with the Defense attaché office on
security sector reform issues and maintains close, constructive relations with Guinean law
enforcement agencies. With the removal of restrictions on assistance following the successful
November 2010 election, the RSO anticipates working with these agencies to identify the most
productive areas for further capacity building.

Foreign Assistance

        Emerging from a period of restrictions on assistance following the 2008 coup, Guinea
receives only limited U.S. Government funding. That funding is expected to increase somewhat
if Guinea’s nascent democratic government takes root. At the time of the inspection, no mission-
wide committee or other mechanism coordinated assistance. The OIG team informally counseled
that one be established if and when assistance expands.

        USAID is rebuilding its presence in Guinea. In FY 2010, USAID managed programs
valued at $16 million that were focused on democracy, governance, and health. At the time of
the inspection, USAID expected an additional $6 million for agriculture and economic growth to
be unfrozen, bringing the FY 2010 total to roughly $22 million. USAID’s health programs
include a small PEPFAR component. Some USAID funding is administered through the Peace
Corps’ Small Project Assistance program.

        Guinea also received a 3-year $3.5 million grant from the Department of Labor to combat
child labor and a separate 3-year $445,500 grant from the Department’s Bureau of Democracy,
Human Rights, and Labor to promote democracy. Outside implementing partners manage both
grants, which conclude in 2011. In FY 2010, various elements of the Department provided
approximately $2 million in law enforcement and security sector reform assistance.

        The political/economic section manages the Ambassadors’ Special Self-Help Program
fund and Democracy and Human Rights Fund. One LE staff assistant, supervised by the
rotational ELO in the consular section, handles these two programs. In FY 2010, the embassy
awarded seven grants from $75,000 in Special Self-Help Program funds. There were no
Democracy and Human Rights funds in FY 2010. The political/economic section is also
responsible for soliciting and vetting grants provided by the Office to Monitor and Combat
Trafficking in Persons. In FY 2010, one $100,000 grant went to the International Organization
for Migration. At the time of the inspection, no one in the section had received grants training or
                                                  7
                               SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

had grants authority. Given the expected growth in assistance to Guinea, the OIG team believes
that at least one officer in the section should have appropriate grants management training to
provide informed guidance and oversight to the assistance programs.

Recommendation 4: Embassy Conakry should develop and implement a plan for Department
of State personnel with responsibility for foreign assistance grants programs to receive
appropriate Foreign Service Institute training on grants monitoring and management. (Action:
Embassy Conakry)

Public Affairs

         The public affairs section (PAS) is located in the new embassy compound (NEC) and is
managed by a PAO, an assistant public affairs officer (APAO), and nine LE staff members. At
the time of the inspection, the PAO position had been vacant since the October 2009 ordered
departure, more than 18 months ago. A new PAO was scheduled to arrive at post soon after the
inspection but was delayed for additional French language training. The APAO position also
became vacant with the ordered departure and was filled 14 months later, in January 2011. The
current APAO is a management-cone officer on her first public diplomacy assignment. During
the 14-month staffing gap, PAS supervisory responsibilities were provided by a combination of
temporary duty public diplomacy officers and one embassy ELO political/economic officer. The
APAO brings strong management and communication skills to the job and has established solid
working relations with other mission elements. The APAO participates in all country team
functions, meets weekly with the DCM, and has direct access to the Ambassador. Soon after her
arrival, the APAO initiated a daily PAS staff meeting to share information and review the
program calendar. This and other inclusive actions have lifted staff morale following a very
difficult period.

        The LE staff is highly motivated. During the tumultuous months leading up to the
Presidential election, under frequently changing American supervision, the LE staff maintained
an active outreach effort to target audiences, particularly youth activists. PAS programs track
closely with current embassy MSRP priorities and have been especially focused toward Muslim
communities, youth groups, and organizations involved in women’s issues. The embassy
participates in Fulbright graduate student and senior lecturer programs and the Hubert H.
Humphrey Fellowship program. During FY 2010, the embassy international visitor committee,
chaired by the DCM, selected 12 Guinean participants for programs in the United States. PAS
supports an alumni association that includes participants of all U.S.-funded exchange programs.
At the time of the inspection, the association was providing voter education for the upcoming
legislative elections. One part-time LE advising specialist manages an active educational
advising program. The LE assistant responsible for coordinating PAS administrative and
financial support was assigned to this position under irregular circumstances in September 2010,
with no previous experience or training. This assignment has had a negative impact on PAS
operations and is further discussed in the Human Resources section of this report.

Information Resource Center and American Corner

       Embassy Conakry’s Information Resource Center (IRC) provides an important service in
a country starved for reliable information. Moreover, it is a model for public diplomacy
                                                8
                               SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

operations that have relocated from facilities with ready public access to the more secure
environment provided by NEC facilities. The move in 2006 from a location in the center of
Conakry to the NEC some distance away has, in fact, resulted in a steady increase in target
audience attendance instead of the decrease that many embassies experience. The very modest
facility, with maximum seating for 50 people, currently attracts between 1,000 and 1,600
students and professionals a month and has 8,000 members registered with the embassy. There
are two principal reasons for this increase: creative programming and a commitment by all
elements of the embassy to make the IRC work. In addition to very popular book-of-the-month
group discussions featuring specific titles, the IRC hosts frequent guest speakers, film showings,
and video Web chats on specific MSRP themes. The facility provides a modest reference and
circulating book collection, eight Internet workstations, and three terminals for English language
study. The IRC is managed by two LE staff specialists and one university student intern who, in
addition to coordinating the very busy program schedule, also provide electronic reference and
information outreach services to embassy contacts and one American Corner.

         The embassy has established one American Corner in eastern Guinea at the University of
Kankan. Because the city of Kankan has only intermittent electricity, the embassy funded the
installation of solar panels at the American Corner to provide reliable power and Internet service.
This modest $12,000 investment more than paid for itself when, during the critical months before
the 2010 elections, American Corner Kankan served as a democracy program base and vital
source of information to key audiences throughout the region. The embassy and university
maintain an active program at the American Corner through a memorandum of understanding
that is kept up to date. The embassy has submitted a request to establish a second American
Corner in another region of Guinea, and the OIG team supports this initiative, subject to the
availability of funds.

Consular Affairs

        Embassy Conakry has a small, well-managed consular section that works efficiently as a
team in the face of a challenging, high-fraud environment. The consular section chief is an
experienced mid-level officer who fosters a collegial, professional atmosphere that promotes
high morale. The section issues nonimmigrant visas (NIV), provides services to American
citizens in Guinea, and processes some asylee visas for residents of Guinea and Sierra Leone.

Consular Management

        Management controls are well understood and applied to prevent fraud, waste, and
mismanagement. Staff size is sufficient for the work load. The OIG team noted some procedural
irregularities that were corrected during the inspection. Reviews of the ELO’s adjudications,
which had been conducted by the DCM, are now being handled by the consular section chief in
accordance with Foreign Affairs Manual guidance 9 FAM 41.121 c. Wait times had not been
routinely updated in the consular consolidated database and showed a slightly longer waiting
period than what actually existed. The OIG inspector discussed the need to update the wait times
on a weekly basis, and the consular section implemented the practice.



                                           9
                              SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED

Staffing

         In addition to the consular section chief, staffing includes a rotational ELO who, as noted
earlier in this report, was also still acting as de facto political/economic section chief at the time
of the inspection; one eligible family member; and four LE staff assistants. The consular section
chief will complete his assignment in less than 2 months. At the time of the inspection, no
replacement had been identified, and an extended vacancy in this position is anticipated. The
ELO position will be vacant for 2 months in late spring. The arrival date of the new officer is
dependent on the successful completion of French language training and thus unknown. Two
other officers in the embassy have some recent consular experience and may be available to
provide short-term help. Embassy Conakry has requested temporary duty assistance for the
summer, and the OIG team supports this request.

        The LE staff is enthusiastic and capable but has limited experience and training. The
longest-serving LE assistant has been in the section for 5 years and has completed online courses
and one workshop at the Foreign Service Institute. The other three have 2 or 3 years of
experience each and are taking online courses that are prerequisites for Foreign Service Institute
training. The consular section chief and the ELO have devoted time to cross-training all of the
staff.

American Citizens Services

        There are fewer than 700 Americans registered with the embassy in Guinea. Of those,
nearly a third are long-term missionaries and another third are children who were born in the
United States and have returned to Guinea live with relatives. American citizens are rarely the
target of crimes, and arrest cases are rare. The consular section has updated all emergency
procedures and keeps an updated list of potential evacuees.

Nonimmigrant Visas

        Embassy Conakry adjudicated 2,058 NIVs in FY 2010, more than 40 percent less than
the previous year. This decrease was primarily because the visa section did not provide routine
service during an extended ordered departure of embassy personnel. Because high levels of
corruption make it easy to obtain diplomatic notes for positions that may or may not exist in the
United States, all applicants, including those for diplomatic visas, must have an interview.

        The consular section follows worldwide guidelines on visa referrals and requires all
authorized personnel to attend a briefing and sign an acknowledgement of understanding. At the
time of the inspection, the names of approved referrers had not been added to the database.
Although no cases were identified in the visa system as having been formal referrals, some notes
indicated that information had been provided by other embassy employees. The OIG inspector
confirmed that referrals had been prepared and instructed the consular section chief on the
procedure for updating the database and identifying referred cases in the NIV software.

       Embassy Conakry has an agreement with a local bank for collection of all NIV
application fees and scheduling all NIV cases. Visas 92 and 93 cases (left-behind family
members of asylees and refugees who have been granted permission to apply for entry status)
                                               10
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

must be scheduled directly by the consular section. More than one-fourth of all NIV cases are
visas 92 and 93. At embassies with U.S. Citizenship and Immigration Services officers, such
cases are not processed by the consular section. These cases require much more time to process
than other NIV applications because virtually every case requires more than one, usually lengthy,
interview and coordination with the National Visa Center. Because these cases often require
additional documentation, the consular section spends more time answering questions on the
status of visas 92 and 93 applications than all other types of inquiry combined. Additionally,
many of the beneficiaries do not speak English or French, and so the consular section must rely
heavily on LE staff to translate into one of several local languages.

Visas Viper Program

        Embassy Conakry holds Visas Viper meetings as required and has submitted all
mandated reports on time. During the past year, the embassy submitted one name via the Visas
Viper channel. The consular section checked the name in the consolidated consular database to
verify that the person in question did not hold a U.S. visa and was not already included in the
lookout database.

Consular Integrity and Antifraud

        The fraud prevention unit consists of one full-time LE staff investigator with supervision
by the consular section chief, who acts as the fraud prevention manager. Document fraud is
widespread, and verification of documents, especially those presented in visas 92 and 93 cases,
represents the largest percentage of the workload for the fraud investigator. She also verifies
documents presented to the consular sections in Dakar and Sierra Leone for immigrant visa cases
and coordinates closely with the fraud units in those embassies.

        DNA testing is frequently required in visas 92 and 93 cases involving children. The
consular section is following the guidelines in 9 FAM 42.44 Notes for the collection of DNA
samples. Approximately 30 percent of DNA results are negative, indicating that no family
relationship exists. Also common in visas 92 and 93 cases is the practice of including adopted
children. Adoption cases must be verified to determine whether they are “simple” cases, which
are informal arrangements that have not gone through the court system and are not legal for visa
issuance purposes.

        Any lengthy staffing gap in the consular section chief position and the eligible family
member positions will decrease the effectiveness of the fraud unit. Many functions in the DNA
testing process must be performed by a cleared American. Findings of ineligibilities based on
fraud also require action by an American officer.

Consular Cashiering

        Two LE staff assistants have been designated in writing as consular cashiers. Only
American citizens service fees are collected in the consular section. At the time of the inspection,
neither cashier had a cash advance. (b) (5)


                                          11
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

(b) (5)



          Informal Recommendation 1: (b) (5)




                                         12
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Resource Management
        Agency             U.S. Direct- U.S. Local-        Foreign                  Total Funding
                            Hire Staff  Hire Staff         National       Total      (in dollars)
                                                            Staff         Staff        FY 2010
State – Diplomatic and
Consular Programs                     12              2            17         31         $1,702,300
State – ICASS                          4              7           180        191         $6,419,500
State – Public
Diplomacy                              2              0               9       11           $314,200
State – Diplomatic
Security                               2              0             22        24          $850,740
State – Representation                 0              0              0         0            $26,200
State – OBO                            1              0              0         1         $1,004,392
Defense Attaché Office                 3              0              1         4          $205,960
USAID – OE                             1              0             32        33         $2,083,000
Peace Corps                            2              0             38        40         $1,407,716

Subtotal                              27              9           299        335        $14,014,008

Foreign Assistance
USAID                                                                                   $16,000,000
AF/RSA                                                                                   $1,786,911
Department of Labor                                                                      $1,160,000
G-TIP                                                                                     $100,000
DRL                                                                                       $148,500
Other                                                                                     $210,350

Subtotal                                                                                $19,405,761

Total                                 27              9           299        335        $33,419,769

Management Operations

        The management section is providing good support across almost the entire range of
administrative operations, despite the ordered departure and long staffing gaps within the section.
This level of support is particularly noteworthy, given the dilapidated infrastructure and general
hardship of living in Conakry, where all electricity must be provided by a generator and water
must be delivered by truck.

        In addition to providing quality support services to the staff, post management faces
several other challenges in the immediate future, many of which involve the NEC, including
maintaining the sophisticated infrastructure and controlling the operational costs of the facility.
These initiatives cannot be accomplished without the technical and financial support of the
Bureau of Overseas Buildings Operations (OBO).

                                          13
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

        The section is under the direction of an experienced management officer who arrived at
post in August 2010 but will soon depart. At the time of the inspection, a replacement had not
been identified. The management team is capable, with a combination of experienced mid-level
and competent entry-level personnel. Three of the officers are serving in one-grade stretch
positions. There are seven eligible family member positions in the section, but only the
community liaison office coordinator, general services office (GSO) assistant, and security escort
positions are filled. Although only in the position a very short time, the community liaison office
coordinator is considered by all to be very effective.

         The 2011 International Cooperative Administrative Support Services (ICASS) customer
satisfaction survey scores for overall ICASS services at Embassy Conakry were above AF and
worldwide averages. The responses to the workplace and quality-of-life questionnaires prepared
for this inspection indicated a similar degree of satisfaction with overall management operations.

        LE staff members are generally well regarded by their American colleagues and perform
well in many important positions in the management section and elsewhere in the mission.
However, many of the lower level white- and blue-collar LE staff members, especially those in
general services, lack training.

Embassy Security Program

      A full discussion of Embassy Conakry’s security program is provided, with
recommendations, in the classified annex to this report.

Financial Management

       Embassy Conakry’s financial management office is providing quality services to its
ICASS customers. The financial management officer (FMO), a first-tour management officer in
a one-grade stretch position, directly supervises seven LE members of staff. The office was
responsible for FY 2010 allotments of approximately $10.3 million. The FMO also has regional
responsibility for Embassy Freetown.

         After serving 2 years as the Class B cashier and 2 years as the alternate, the cashier is
experienced, knowledgeable, and well trained. Cashier operations are in accordance with
established financial management procedures and requirements. The cashier’s accountability was
decreased from (b) (5)                . Although there have been subcashiers in the past, at present
there are none. The FMO plans to designate mailroom, facilities maintenance, and consular
subcashiers (an informal recommendation is included in the Consular Affairs section of this
report).

        With the imminent departure of the management officer, the FMO will be the only
certifying officer at the embassy and will serve as acting management officer. The LE financial
specialist has completed the formal certifying officer coursework and has a designation card on
file.

       Informal Recommendation 2: Embassy Conakry should request that its locally
       employed financial specialist be designated as a locally employed staff certifying officer.
                                               14
                            SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

       In advance of the inspection, the Financial Support and Training Office in Paris sent an
AF regional specialist to Conakry for approximately 3 weeks to review financial operations.
Areas reviewed and discussed with the financial management staff included funds control,
vouchering, cashier operations, and embassy policies.

International Cooperative Administrative Support Services

        The embassy’s ICASS council includes representatives from the Department of State,
Department of Defense, Peace Corps, and USAID. The council is chaired by the USAID mission
director. Because of the ordered departure, the council met only twice in 2010 but plans to meet
regularly in 2011, using the ICASS Service Center’s meeting planning schedule as guidance.
Following Foreign Affairs Handbook guidance 6 FAH-5 H-222.4, the embassy recently
established an ICASS budget committee that is chaired by the DCM.

       One of the responsibilities of an ICASS council is to provide input to embassy
management for inclusion into the annual evaluations of service providers. Because
implementation of this responsibility has been hit or miss, in September 2010, the Department’s
ICASS executive board decided to revise the annual assessment process of mission services. The
OIG team counseled both the management officer and the FMO to meet with the mission ICASS
council and adopt the revised process as outlined in 6 FAH-5 H-160.

Human Resources

       Embassy Conakry respondents to the 2011 ICASS customer satisfaction survey ranked
American personnel services on par with bureau and worldwide averages; LE staff services were
ranked slightly higher. The results of OIG questionnaires were also positive, with the overall
management of HR receiving an aggregate score far above the average of embassies previously
inspected by the OIG.

        The HR section consists of three LE staff members under the supervision of the
management officer, who received HR officer training before arriving in Conakry. The two
senior LE staff assistants are knowledgeable and well trained, but the third, the HR clerk, is less
experienced. HR operations will be affected by the imminent departures of the management
officer and the most senior LE specialist. The OIG team reached out to Embassy Bamako’s
regional HR officer, and she and her senior HR specialist will visit Conakry at the end of March
to provide support.

       Training is an embassy priority, with $90,000 budgeted for ICASS employees and
$45,000 for program employees. The awards program functions appropriately, and $32,400 has
been set aside for ICASS and program American and LE staff.

       Because of the poor information technology infrastructure in Guinea, the Department’s
Office of Performance Evaluation has granted Embassy Conakry an exception from the use of
ePerformance in preparing American employee evaluation reviews for the 2010–2011 cycle.

         In August 2010, embassy management decided to reassign two LE assistants, an action
that ultimately affected a total of four LE assistants from different sections and at different pay
                                                  15
                               SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

grades. The moves resulted in a promotion for one and an involuntary downgrade for another.
The four positions were C95233, C95488, N12025, and C95307. Per the Department’s Office of
Overseas Employment (HR/OE), there are three instances when an employee can be reassigned
without going through the recruitment process; however, first and foremost, there has to be a
vacant position. The three instances are reduction in force, medical reasons, and exigent
circumstances (e.g., harassment of an employee and/or relatives from outside sources due to the
employee’s assigned duties and responsibilities or position held at the embassy). The third must
be authorized by HR/OE’s international HR manager. There was no vacant position at the time
of the reassignments.

         To obtain authorization for these moves, embassy management did not consult HR/OE
but relied instead on local labor law, under which the reassignments could be justified, provided
all four LE employees concurred. The OIG team received conflicting accounts as to whether the
four LE employees did, in fact, voluntarily concur. The front office advised that all four had
agreed. At the same time, others told the inspectors that the employees were not given a choice;
if all four did not agree, embassy management would direct them to move. If the affected staff
did not agree with embassy management’s decision, the employee(s) would have to resign. This
reassignment of LE staff to positions for which they had no training and experience has had
repercussions, including violations of procurement regulations.

       In its review of the employees’ files, the OIG team found no deleterious information that
could be used to justify the employees’ reassignments. In fact, all employees received ratings of
good and/or exceptional on their employee performance reports.

Recommendation 5: Embassy Conakry, in coordination with the Bureau of Human Resources
and the Office of the Legal Adviser, should review the September 2010 transfers of local
employees to determine whether they were accomplished in accordance with Department of
State regulations and procedures. (Action: Embassy Conakry, in coordination with DGHR and
L)

Locally Employed Staff Committee

         On several occasions, the OIG team met with members of the LE staff association’s
executive committee, which includes representatives from Peace Corps and USAID. They
reported that they have excellent access to the front office and meet with the DCM every 2
weeks. Unfortunately, the inspectors discovered a communications disconnect between the LE
committee and the former DCM concerning the new LE staff health plan. The LE committee told
the OIG inspectors that, in their meetings with the former DCM, the committee believed that he
was negotiating on their behalf to secure a new health plan that would include no deductibles. In
fact, this was not the case. In its discussions with HR/OE, the OIG team learned that the “no
deductible” request was never an option. The departure of the former DCM left an information
vacuum with respect to this issue. The OIG team urged the DCM to include the management
officer in all such future meetings.

       Informal Recommendation 3: Embassy Conakry should include the management
       officer and/or human resource specialist in the regularly scheduled meetings between the
       deputy chief of mission and the locally employed staff committee.
                                               16
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

        Officer elections for the LE staff committee are not conducted in accordance with the
charter, which states that, once elected by the LE staff association, the LE staff committee
members themselves meet to elect the officers. The charter does not reflect LE staff committee
practice. At present, aspiring committee members campaign directly for a specific officer
position.

       Informal Recommendation 4: Embassy Conakry should amend the locally employed
       staff association charter to reflect the current practice of electing officers.

        Article 2. e. of the LE staff association charter states, “Upon request, the association may
make itself available…as one of the primary sources for the recruiting of Guinean employees.”
According to standard Department policy, LE staff associations may not serve as a primary
source in the recruitment of personnel.

       Informal Recommendation 5: Embassy Conakry should amend the locally employed
       staff association’s charter to delete article 2. e.

General Services

         Embassy Conakry’s GSO provides logistical services in one of the most difficult
operating environments in the world. Daily challenges include chronic electricity and water
shortages, nonavailability of basic supplies and services, and the need to support the chancery’s
sophisticated technological systems. Headed by a first-tour officer, GSO has done a satisfactory
job in light of these many challenges. Housing services, crucial to morale in this environment,
generally work well. The embassy has made some progress in improving fuel accountability and
motor vehicle operations. Scores for most services on OIG’s inspection questionnaires are near
Department averages in most GSO service areas.

         However, significant challenges remain, especially in property management and
procurement. As the embassy moves to normalize operations following the extended evacuation,
training for local staff in all GSO operations requires sustained attention. GSO has been plagued
by high turnover in key local supervisor positions. Most local supervisors have less than 2 years
on the job and are not fully proficient. The problem of high turnover and training gaps among
local employees, also noted in the last OIG inspection, complicates successful management of
GSO operations. The embassy cannot regularly send employees to the United States or Europe
for training because applicants often cannot obtain visas. AF has actively supported all post
requests for support and training.

Shipping

       Shipping services are generally satisfactory, but the local supervisor is new to his position
and has not had formal training in shipping regulations and operations. The embassy is not using
the Department’s electronic application for shipping and does not have a tracking system for
monitoring shipments. Shipping files do not contain required information such as travel orders,
payments to local shipping vendors, and written shipping instructions from departing American
personnel. As a result, required information needed to clear freight efficiently and document
compliance with internal controls is not retained.
                                                17
                               SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

Recommendation 6: Embassy Conakry, in coordination with the Bureau of African Affairs,
should send its shipping supervisor to a neighboring embassy for on-the-job training in shipping
procedures and policies. (Action: Embassy Conakry, in coordination with AF)

       Informal Recommendation 6: Embassy Conakry should establish a tracking system to
       record the status of incoming and outbound shipments.

       Informal Recommendation 7: Embassy Conakry should institute a written standard
       operating procedure for the establishment of shipping files that includes retention of
       copies of travel orders, bills of lading, vendor invoices, shipping instructions, and
       communications with U.S. dispatch agencies.

Property Management

        Property management and warehouse operations are weak. The implementation of
effective supply chain management and internal controls practices has been hampered by high
personnel turnover among local staff; a lack of clearly documented procedures for control of
property; and the extended post evacuation, which eroded American oversight. Proper separation
of duties is not in place for receiving and issuing government property, which raises the risk of
malfeasance. A review of property disposal records of items sold at the last auction revealed that
a number of high-value items, such as photocopy machines, computers, and generators, did not
have nonexpendable property numbers and that employees in the property management unit
purchased items at the last property auction. These issues are described in more detail in the
Management Controls section of this report.

        Operationally, the embassy warehouse is too small to accommodate all of the mission’s
storage needs, a problem that affects many other NECs. The embassy plans to reduce excessive
stocks of residential furniture and appliances by limiting furniture purchases this year to
necessary quantities, a step that will free up space in the warehouse. The embassy operates two
off-compound property storage facilities that are vulnerable to theft or mismanagement of
government property. These compounds are used to store and dispense high-value items such as
air conditioner units, generators, generator parts, and replacement (excess) furniture. The
acquisition value of items stored at these locations exceeds $350,000. Internal controls
procedures at both compounds are not satisfactory. Property must be stored and accounted for
under closer direct supervision at the chancery because of the risks of theft and malfeasance in
this environment.

Recommendation 7: Embassy Conakry should develop and implement a plan to consolidate all
expendable and nonexpendable property operations in the new embassy compound warehouse.
(Action: Embassy Conakry)

        As noted earlier, space is at a premium in the warehouse, but options exist to maximize
space to accommodate facilities maintenance and excess property storage needs. For example,
the embassy recently installed shelving and purchased containers for storage. Implementation of
the established best practice of using disposable welcome kits would allow the conversion of
another storeroom for secure storage of high-value items such as generator and vehicle parts.

                                         18
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

       Informal Recommendation 8: Embassy Conakry should procure disposable welcome
       kits and eliminate its inventory of regular welcome kits to maximize usable warehouse
       space.

Motor Vehicles

        The embassy maintains an official vehicle fleet of 67 vehicles, with a total acquisition
value of $2.76 million. This fleet is excessive for a post of Conakry’s size. An analysis of the
motor pool use records for the past 3 months indicates that the motor pool fleet should contain
approximately 20 vehicles, based on Department standards of 12,000 miles per year. Vehicle
fleet records do not allow on-site analysis to determine proper inventory levels for service
vehicles for the Marines, maintenance, GSO, and regional security office; however, an OIG team
analysis of the vehicle fleets of neighboring posts found that none of them had an inventory of
more than 49 vehicles.

Recommendation 8: Embassy Conakry should reduce its inventory of official vehicles to no
more than 40 vehicles. (Action: Embassy Conakry)

Fuel Operations

        Embassy Conakry runs generators for the chancery and all residential properties 24 hours
a day. The single largest line item in the embassy’s budget is fuel, which is procured at an annual
cost of $2 million. The embassy has recently instituted a number of strong practices to reduce
fuel theft. The decision to assign an American family member to personally accompany the
generator fuel truck to residential fuel deliveries is saving at least $100,000 annually in reduced
fuel consumption. However, the embassy does not yet prepare a comprehensive monthly report
on fuel use and estimated consumption based on mileage and generator fuel consumption
estimates, but it has collected most of the information needed to prepare a report. The
development of a comprehensive fuel report will allow deterrence and detection of fuel theft.

Recommendation 9: Embassy Conakry should develop a monthly report on estimated fuel
requirements and actual amounts procured and dispensed and submit it to the deputy chief of
mission for review. (Action: Embassy Conakry)

Facilities Maintenance

       Embassy Conakry’s facilities maintenance unit is led by a strong facilities manager who
has successfully addressed building maintenance issues during his tour. The facilities manager
revived a nonfunctional preventive maintenance program for the chancery’s building systems.
Implementation of an active preventive maintenance program has significantly reduced the
number of major buildings systems failures that had occurred in previous years. He has also
reorganized the maintenance personnel structure to create a more responsive maintenance
operation.

        The facilities maintenance unit has experienced severe difficulties in attracting and
retaining qualified local personnel with the skills required to maintain building systems. A
mechanical engineer position has been vacant for 5 years, and a key electrical engineer position
                                                 19
                               SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

was filled only recently. As noted in a recent Government Accountability Office audit, similar
staffing problems also affect other NECs worldwide. Embassy Conakry’s challenges in
supporting the building’s complex chillers, fire suppression systems, and building automation
systems also are typical of those encountered at other posts. OBO has provided extensive
contractor support to train local staff and address ongoing programs.

New Embassy Compound

         Embassy Conakry moved into its NEC in 2006. Since that time, the embassy has
addressed a series of costly failures of major buildings systems. These failures were related to
construction defects, a lack of regular preventive maintenance on these systems, and the
installation of standard building systems that are not suited to rugged African conditions. Major
problems reported by post include the failures of two automatic voltage regulator systems, two
chiller system components, the dry pipe fire suppression system, forced-entry/ballistic-resistant
doors throughout the mission, and generators designed to serve as backup rather than primary
generators. The OIG team estimates that replacements of buildings systems in this facility have
cost approximately $2 million since the chancery opened in 2006. Maintenance of the chiller, fire
suppression, and building automation systems has required extensive and costly assistance from
OBO and external contractors.

Information Management

         The electric power infrastructure in Guinea is one of the least reliable in West Africa. The
embassy can function only on continual generator power, and this has had a serious impact on
critical equipment, which is frequently destroyed. Despite these hardships, the information
management (IM) section continues to provide adequate support and services to all embassy
elements. These services include computer networks and radio and telephone programs, as well
as mail, pouch, and switchboard operations.

       The Information Programs Center is managed by an experienced information
management officer (IMO) and one first-tour IM specialist. The section includes three LE
systems specialists, three LE mail room assistants, three LE receptionist/telephone operators, and
one LE radio/telephone technician. Despite the difficult conditions, overall mission satisfaction
with IM support is good.

        Systems security is performed by both the IMO and the IM specialist, and both have
taken the information systems security officer course. The information systems security officers
check regularly for abnormalities and keep all mission employees aware of systems rules and
responsibilities. The section also closely monitors embassy employee cyber security training
requirements.

Circuit Latency

         Although a recent doubling of bandwidth has helped Embassy Conakry to some extent,
latency factors continue to be an impediment to effective operations. Latency (i.e., excessive
delay on the circuit via satellite) interferes with the use of many Web-based programs. Because
of this latency, the embassy has a waiver not to use the ePerformance Web-based evaluation
                                                   20
                                SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

application. The IMO has worked with elements within the Department and the Diplomatic
Telecommunications Service Program Office to resolve this issue. However, the latency issues in
the embassy will not be resolved until Guinea is added to a terrestrial/fiber submarine cable,
currently scheduled for 2012 or 2013.

Alternate Command Center

       According to the current embassy emergency action plan, the Peace Corps office is now
designated as the alternate command center (ACC). However, this location has no office space or
equipment other than a high-frequency radio and associated antenna. The OIG inspection team
learned that the embassy plans to move the ACC to an alternate location that has been identified.
The inspectors visited the proposed location, on a U.S. Government-owned compound, and
support the ACC move to this site. The embassy currently has all of the necessary equipment for
the new ACC.

Radio Inventory

       Radios are a necessary form of communication in Conakry, and the embassy maintains a
network of approximately 200 units. Department regulation 5 FAM 542.2 states that the IMO is
responsible for managing the embassy’s radio program, including maintaining an up-to-date
inventory. The OIG team found that the radio inventory is not complete and does not account for
approximately 15 percent of the current stock.

Recommendation 10: Embassy Conakry should reconcile its radio inventory according to
Department of State guidance. (Action: Embassy Conakry)

Worldwide Property Accounting System Inventory

        The embassy does not have a Worldwide Property Accounting System (WPAS)
inventory of its communications equipment. Department guidance in 5 FAH-2 H-851 advises
that each piece of equipment, either online or stored as a spare, that is defined as accountable
through the WPAS system should be listed on the WPAS inventory. In addition, 14 FAM 418.1
requires that an inventory certification must be sent to the Office of Logistics Management by
March 15 each year.

Recommendation 11: Embassy Conakry should complete its Worldwide Property Accounting
System inventory and submit it to the Bureau of Administration, Office of Logistics
Management. (Action: Embassy Conakry)

Dedicated Internet Network Waiver

        Embassy Conakry has not obtained a required waiver for the Dedicated Internet Network
that serves PAS. Department guidance in 5 FAM 872.2 provides the required registration policy.

Recommendation 12: Embassy Conakry should apply for a waiver for the Dedicated Internet
Network that serves the public affairs section. (Action: Embassy Conakry)

                                         21
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

Lack of Documentation

        All required IM documentation is up to date with one exception. The embassy has no
current standard operating procedures for the systems and IM sections. The current standard
operating procedures were last revised in 2004. Equipment and procedures change frequently in
the IM section, and 5 FAM 121.2 c. (7) (h) states that the IM section should maintain up-to-date
standard operating procedures for all Information Programs Center operations.

Recommendation 13: Embassy Conakry should revise the standard operating procedures for all
information management section operations. (Action: Embassy Conakry)




                                         22
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Quality of Life
Health Unit

        A second-tour Foreign Service health practitioner and two LE medical assistants manage
the health unit. Hired from Cote d’Ivoire, the nurse is eligible for an exception-rate-range salary
under the local compensation plan. A regional medical officer, regional medical
officer/psychiatrist, and regional medical technician, all from Embassy Dakar, support the
embassy.

       The health unit is located in the NEC and provides primary medical care to embassy staff
and dependents, as well as emergency care to local staff members who suffer illness or injury
while on the job. London is the medical evacuation point. An alternate embassy health unit has
been established at the Peace Corps facility. A former regional security office vehicle has been
converted to for use as an ambulance should the need arise.

        The OIG team’s review confirmed that the health unit correctly administers confidential
patient records and that controlled substances are properly safeguarded and distributed,
expiration dates are tracked, and logs are properly kept.

        The Foreign Service health practitioner has been working closely with the Department of
Labor’s Office of Workers’ Compensation Programs to ensure reimbursement of medical and
living expenses incurred on behalf of an LE staff employee who was permanently disabled after
having an accident while driving a U.S. Government vehicle.

Community Liaison Officer

         The community liaison officer had been on the job for 6 weeks at the time of the
inspection. She could not participate in country team meetings because her security clearance
was still in process. She had not received training at the time of the inspection but was scheduled
for a course later in the spring. Conakry is a partially unaccompanied post, with only adults
allowed at post at this time. Even though there is currently no demand for school information, the
community liaison officer attends school board meetings. She also maintains a full schedule of
activities for embassy personnel and temporary duty visitors in Conakry.

Equal Employment Opportunity Counselor

       Embassy Conakry is in compliance with 3 FAM 1514.2. The Chief of Mission has
designated an EEO counselor and has also named an LE staff liaison for EEO issues. The EEO
counselor maintains a bulletin board that is accessible to all mission employees and has
completed the required 32-hour training program and certification. In February, the EEO
counselor provided training to all embassy staff. No EEO complaints have been filed.




                                          23
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Recreation Association

        The American Embassy Employees Association operates from one room within the
chancery and provides snack food, coffee, and video rental services to both American and LE
staff. A small selection of frozen foods is available to American employees only. A Guinea-
hired part-time employee handles sales. The association’s treasurer, the DCM’s office
management specialist, provides day-to-day oversight and is credited for revitalizing the
association after the lifting of the ordered departure.

        As long as Conakry’s status remains adult dependents only, sales will remain minimal.
An audit performed in 2009 by two employees of the embassy’s financial management office
relied on reconstructed financial records, and a small net profit was realized. A point-of-sale
system and QuickBooks accounting software are now in use, which will enhance the accuracy of
the 2010 audit.

        As a morale booster, the association remodeled the movie room at the Nongo housing
compound. When community functions are held there, the association pays for the snacks and
drinks.

International School
       (b)(5)(b)(6)                           is a small independent institution that is recovering
from a period of reduced enrollment caused by political unrest. At the time of the inspection, the
school had no U.S. Government-dependent children because of the embassy’s adult-dependents-
only status. The new director arrived in July 2010 on a 2-year contract and is working to rebuild
enrollment and further develop the school.(b)(5)(b)(6)
                                                                     The school is accredited by
the Middle Schools Association of Schools and Colleges through the 9th grade. Currently, all
high school instruction is conducted through the University of Nebraska Online High School
Program. In FY 2010, the school received a $65,000 grant from HR/OE. In the past, it has also
received funds for security upgrades




                                          24
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Management Controls
       Embassy Conakry operates in a high-risk environment for waste, fraud, and
mismanagement. The OIG team found that embassy internal controls systems are operating in
most areas. The extended post evacuation reduced American staffing to essential personnel only,
and thin staffing eroded some controls processes. Internal controls on property management and
procurement need attention. The Ambassador signed the annual chief of mission certification in
July 2010 and did not identify reportable conditions or material weaknesses.

Property Management Standard Operating Procedures

         The embassy does not have in place procedures to ensure separation of duties and sound
controls procedures for property management. For example, there are no written receiving
procedures, and as many as five individuals sign to accept government property. Neither of the
two receiving clerks personally witnesses the delivery of fuel to the embassy compound, but they
sign receiving reports for these deliveries. The motor pool maintains inventories of sensitive
items such as tires, oil, and vehicle parts and is also responsible for issuing these supplies to a
local body shop contractor. The expendable supply office conducts its own annual inventory
process without oversight from an external inventory team. The OIG team conducted a spot
check of expendable inventory and found shortages of high-value items. Both of the latter
practices are contrary to 14 FAM 411.2 d. with respect to separating duties for inventory,
receiving, and conducting the inventory process. Posts also are required to implement written
standard operating procedures for property management, as noted in 14 FAM 413.7 a. The post
is at risk of loss or theft of property in the absence of stronger controls on property.

Recommendation 14: Embassy Conakry should establish and implement written standard
operating procedures for property management, with an emphasis on separation of duties for
dispensing, receiving, and inventory functions, and distribute them to all personnel with property
management responsibilities. (Action: Embassy Conakry)

Nonexpendable Property Transfer Process

        The embassy does not have in place several important internal controls on personal
property with an acquisition value of $6.53 million. The embassy does not always consistently
prepare nonexpendable property transfer forms prior to removal of government property from the
chancery. For example, the facilities maintenance unit maintains custody over certain property,
which is removed from the premises without the written approval of the American accountable
property officer. In addition, the nonexpendable property forms that are prepared are not sent to
the nonexpendable property clerk before property is issued. Because the nonexpendable property
clerk does not receive the forms, he cannot enter locations of property into the inventory
database. The embassy has initiated the process of conducting residential inventories upon the
arrival of American staff but has not received signed residential inventories for many properties.
Regulations at 14 FAH-1 H-421a. require supervisory-level authorization and approval by the
American accountable property officer prior to the removal of property from government
premises. When forms are not completed, inventory procedures cannot accurately record the
location of property. In the absence of property controls, there is no assurance that property is
                                          25
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

being removed from the chancery compound for bona fide purposes. In 2005, the embassy wrote
off $1.5 million in personal property that could not be accounted for, a situation that highlights
the risks of not having in place strong property management procedures.

Recommendation 15: Embassy Conakry should implement a procedure that requires the use of
nonexpendable property transfer forms for all property transfers, complete with signatures
authorizing such transfers and acknowledging receipt of property. (Action: Embassy Conakry)

Procurement and Contracting

         Procurement and contracting services are not operating efficiently and in accordance with
contracting regulations. Procurement services received marks well below Department averages
on OIG’s customer service questionnaires. Problems include delays in acquisitions, inefficient
tracking of pending acquisitions, and noncompletion of essential procurement file
documentation. The unit also does not always obtain fiscal data in advance of procurements,
correctly record invoice amounts, or properly maintain logs of blanket purchase agreements. The
newly hired local supervisor has set up a tracking system and prepares basic contracting
documents. Other essential internal controls need improvement. Several unauthorized
commitments occurred during the inspection. An unauthorized commitment occurs when a
contractual agreement is made that is not binding on the U.S. Government solely because the
government representative who made the commitment lacked the requisite authority to do so.
Acquisition agreements generally may be made only by warranted contracting officers.
Unauthorized commitments are a serious violation of administrative procedures that may subject
the responsible officers to disciplinary action. Although the procurement unit benefited from a
visit from a senior local employee from a neighboring post, a training visit from the Office of the
Procurement Executive would be of significant value.

Recommendation 16: The Bureau of Administration should send personnel to conduct a staff
assistance visit to Embassy Conakry to evaluate local procurement operations and train staff in
procurement regulations and procedures. (Action: A)

Recommendation 17: Embassy Conakry should publish a management notice on unauthorized
commitments and distribute this to the embassy community. (Action: Embassy Conakry)

Internal Controls on Fuel

       During the inspection, the OIG team received allegations of fuel theft from embassy
properties, as well as thefts of residential generators, embassy vehicles, and generators on the
embassy compound. The embassy has instituted strict controls on vehicle fuel issuance.
Although the embassy has generally satisfactory internal controls for fuel, there are several areas
in which controls should be further enhanced.

        GSO approves invoices for payment without properly completed receiving reports.
Receiving reports must be prepared for receipt of all goods delivered to the embassy and
constitute an essential internal control. Department regulation 4 FAH-3 H-424.1 requires that
contracting officer personnel certify that invoices are correct, proper, and just for payment and
that receiving reports exist. The embassy’s receiving clerk does not personally participate in
                                                 26
                               SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

verifying fuel deliveries to the chancery. It is necessary for the receiving clerk to be present to
confirm that payment is made only for approved invoices and that shortages or nondeliveries are
detected. The lack of involvement by the receiving clerk in the fuel delivery processes raises the
risk that shortage in fuel deliveries could go undetected.

Recommendation 18: Embassy Conakry should establish and implement a policy that requires
its receiving clerk to personally witness fuel deliveries and record fuel receipts against funded
purchase orders. (Action: Embassy Conakry)

        The embassy employs the services of a contract company to deliver residential diesel.
Because fuel is delivered directly to generators and is not received first at the embassy, receiving
reports cannot be prepared for this fuel. Regulations at 14 FAH-1 H-815.2 d. require preparation
of receiving reports for all fuel deliveries. Because embassy personnel cannot verify the accuracy
of the fuel contractor’s flow meters, there is a risk that the embassy could receive less fuel than it
paid for in deliveries or that undelivered quantities could be diverted. The embassy has two
government-owned fuel trucks with calibrated flow meters that it could use to deliver fuel
directly, which would strengthen internal controls.

Recommendation 19: Embassy Conakry should cease the practice of having a contract vehicle
deliver fuel to residential generators. (Action: Embassy Conakry)

        The embassy does make some emergency fuel deliveries with one of the embassy fuel
trucks. However, this vehicle does not have a functioning dipstick to determine fuel levels prior
to and after fuel delivery trips. Consequently, it is not possible to accurately complete daily fuel
issuance reports and adequately monitor the usage of fuel for this vehicle.

       Informal Recommendation 9: Embassy Conakry should procure a dipstick to measure
       fuel levels for its fuel truck fleet and prepare daily fuel issuance reports for the fuel truck.

Cell Phone Controls

      Embassy Conakry’s official cellular telephone program is not well organized. Although
the embassy expends approximately $104,000 annually on cell phones, it does not retain accurate
records of cell phones issued to employees. Disposal records for older and damaged cell phones
have been neglected. Regulations at 14 FAM 414.3 a. require completion of personal custody
records for cell phones issued to employees. If no signature is on record, there is a question as to
who is responsible for the safekeeping of the phone.

       Informal Recommendation 10: Embassy Conakry should reconcile its entire cellular
       telephone inventory and use the DS-584 property custody record for all cell phones
       issued to embassy employees.

American Forces Network Equipment

        The embassy improperly expended approximately $21,000 in FY 2010 on satellite
television equipment for employees to receive American Forces Network programming in their
residences. Department policy is that such expenses are an employee’s personal expense and that
                                               27
                            SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

appropriated funds should not be used to pay for these items. Certain employees with official
business requirements, such as the Ambassador, DCM, and PAO, are authorized such expenses.
At other embassies, the function of buying and supporting satellite television equipment rests
with American employees and is frequently handled by the employee recreation association or
private vendors.

Recommendation 20: Embassy Conakry should cease the practice of using appropriated funds
to procure or support personal satellite television services. (Action: Embassy Conakry)




                                        28
                            SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


List of Recommendations
Recommendation 1: Embassy Conakry, in coordination with the Bureaus of African Affairs,
Diplomatic Security, and Human Resources, should take appropriate steps to review the current
adult-dependents-only status and determine whether it should be changed. (Action: Embassy
Conakry, in coordination with AF, DS, and DGHR)

Recommendation 2: The Bureau of African Affairs, in coordination with the Bureau of Human
Resources, should enroll the incoming economic officer in the Foreign Service Institute’s
commercial tradecraft course prior to his arrival in Conakry. (Action: AF, in coordination with
DGHR)

Recommendation 3: Embassy Conakry, in coordination with the Bureau of African Affairs,
should send its economic/commercial locally employed staff to a neighboring embassy for on-
the-job training in commercial procedures and policies. (Action: Embassy Conakry, in
coordination with AF)

Recommendation 4: Embassy Conakry should develop and implement a plan for Department
of State personnel with responsibility for foreign assistance grants programs to receive
appropriate Foreign Service Institute training on grants monitoring and management. (Action:
Embassy Conakry)

Recommendation 5: Embassy Conakry, in coordination with the Bureau of Human Resources
and the Office of the Legal Adviser, should review the September 2010 transfers of local
employees to determine whether they were accomplished in accordance with Department of
State regulations and procedures. (Action: Embassy Conakry, in coordination with DGHR and
L)

Recommendation 6: Embassy Conakry, in coordination with the Bureau of African Affairs,
should send its shipping supervisor to a neighboring embassy for on-the-job training in shipping
procedures and policies. (Action: Embassy Conakry, in coordination with AF)

Recommendation 7: Embassy Conakry should develop and implement a plan to consolidate all
expendable and nonexpendable property operations in the new embassy compound warehouse.
(Action: Embassy Conakry)

Recommendation 8: Embassy Conakry should reduce its inventory of official vehicles to no
more than 40 vehicles. (Action: Embassy Conakry)

Recommendation 9: Embassy Conakry should develop a monthly report on estimated fuel
requirements and actual amounts procured and dispensed and submit it to the deputy chief of
mission for review. (Action: Embassy Conakry)

Recommendation 10: Embassy Conakry should reconcile its radio inventory according to
Department of State guidance. (Action: Embassy Conakry)



                                         29
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

Recommendation 11: Embassy Conakry should complete its Worldwide Property Accounting
System inventory and submit it to the Bureau of Administration, Office of Logistics
Management. (Action: Embassy Conakry)

Recommendation 12: Embassy Conakry should apply for a waiver for the Dedicated Internet
Network that serves the public affairs section. (Action: Embassy Conakry)

Recommendation 13: Embassy Conakry should revise the standard operating procedures for all
information management section operations. (Action: Embassy Conakry)

Recommendation 14: Embassy Conakry should establish and implement written standard
operating procedures for property management, with an emphasis on separation of duties for
dispensing, receiving, and inventory functions, and distribute them to all personnel with property
management responsibilities. (Action: Embassy Conakry)

Recommendation 15: Embassy Conakry should implement a procedure that requires the use of
nonexpendable property transfer forms for all property transfers, complete with signatures
authorizing such transfers and acknowledging receipt of property. (Action: Embassy Conakry)

Recommendation 16: The Bureau of Administration should send personnel to conduct a staff
assistance visit to Embassy Conakry to evaluate local procurement operations and train staff in
procurement regulations and procedures. (Action: A)

Recommendation 17: Embassy Conakry should publish a management notice on unauthorized
commitments and distribute this to the embassy community. (Action: Embassy Conakry)

Recommendation 18: Embassy Conakry should establish and implement a policy that requires
its receiving clerk to personally witness fuel deliveries and record fuel receipts against funded
purchase orders. (Action: Embassy Conakry)

Recommendation 19: Embassy Conakry should cease the practice of having a contract vehicle
deliver fuel to residential generators. (Action: Embassy Conakry)

Recommendation 20: Embassy Conakry should cease the practice of using appropriated funds
to procure or support personal satellite television services. (Action: Embassy Conakry)




                                         30
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


Informal Recommendations
        Informal recommendations cover operational matters not requiring action by
organizations outside the inspected unit and/or the parent regional bureau. Informal
recommendations will not be subject to the OIG compliance process. However, any subsequent
OIG inspection or on-site compliance review will assess the mission’s progress in implementing
the informal recommendations.

Informal Recommendation 1: (b) (5)


Informal Recommendation 2: Embassy Conakry should request that its locally employed
financial specialist be designated as a locally employed staff certifying officer.

Informal Recommendation 3: Embassy Conakry should include the management officer
and/or human resource specialist in the regularly scheduled meetings between the deputy chief of
mission and the locally employed staff committee.

Informal Recommendation 4: Embassy Conakry should amend the locally employed staff
association charter to reflect the current practice of electing officers.

Informal Recommendation 5: Embassy Conakry should amend the locally employed staff
association’s charter to delete article 2. e.

Informal Recommendation 6: Embassy Conakry should establish a tracking system to record
the status of incoming and outbound shipments.

Informal Recommendation 7: Embassy Conakry should institute a written standard operating
procedure for the establishment of shipping files that includes retention of copies of travel
orders, bills of lading, vendor invoices, shipping instructions, and communications with U.S.
dispatch agencies.

Informal Recommendation 8: Embassy Conakry should procure disposable welcome kits and
eliminate its inventory of regular welcome kits to maximize usable warehouse space.

Informal Recommendation 9: Embassy Conakry should procure a dipstick to measure fuel
levels for its fuel truck fleet and prepare daily fuel issuance reports for the fuel truck.

Informal Recommendation 10: Embassy Conakry should reconcile its entire cellular telephone
inventory and use the DS-584 property custody record for all cell phones issued to embassy
employees.




                                         31
                             SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Principal Officials

                                                              Name Arrival Date
Ambassador                                        Patricia N. Moller      11/09
Deputy Chief of Mission                           Stephen G. Fakan        07/10
Chiefs of Sections:
  Administrative                                   Michael R. Pace       08/10
  Consular                                         John P. Marietti      02/08
  Political/Economic (acting)                       Albert Ofrecio       09/10
  Public Affairs (acting)                           Vallera Gibson       01/11
  Regional Security                                Keith W. Harris       09/10
Other Agencies:
  Department of Defense                        Tong Chemeng Vang          01/10
  Peace Corps (acting)                             Priscilla Sampil       09/08
  U.S. Agency for International Development            Nancy Estes        02/11




                                       32
                           SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED


Abbreviations
ACC             Alternate command center
AF              Bureau of African Affairs
APAO            Assistant public affairs officer
DCM             Deputy chief of mission
EEO             Equal Employment Opportunity
ELO             Entry-level officers and specialists
FAH             Foreign Affairs Handbook
FAM             Foreign Affairs Manual
FMO             Financial management officer
GSO             General services office
HR              Human resources
HR/OE           Bureau of Human Resources, Office of Overseas Employment
ICASS           International Cooperative Administrative Support Services
IM              Information mangement
IMO             Information management officer
IRC             Information Resource Center
LE              Locally employed (staff)
MSRP            Mission Strategic Resource Plan
NEC             New embassy compound
NIV             Nonimmigrant visa
OBO             Bureau of Overseas Buildings Operations
OIG             Office of Inspector General
PAO             Public affairs officer
PAS             Public affairs section
RSO             Regional security officer
USAID           U.S. Agency for International Development
WPAS            Worldwide Property Accounting System




                            33
                SENSITIVE BUT UNCLASSIFIED
   SENSITIVE BUT UNCLASSIFIED




FRAUD, WASTE, ABUSE,
OR MISMANAGEMENT
of Federal programs hurts everyone.




           Contact the
   Office of Inspector General
          HOTLINE
to report illegal or wasteful activities:



             202-647-3320
             800-409-9926


         oighotline@state.gov


             oig.state.gov


      Office of Inspector General
       U.S. Department of State
            P.O. Box 9778
         Arlington, VA 22219



   Cables to the Inspector General
  should be slugged “OIG Channel”
      to ensure confidentiality.




   SENSITIVE BUT UNCLASSIFIED
                                  1
